Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


  MEDICARE OVERPAID INPATIENT
    REHABILITATION FACILITIES
 MILLIONS OF DOLLARS FOR CLAIMS
 WITH LATE PATIENT ASSESSMENT
INSTRUMENTS FOR CALENDAR YEARS
         2009 AND 2010


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                     September 2012
                                                      A-01-11-00534
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Under the prospective payment system for inpatient rehabilitation facilities (IRF), the Centers for
Medicare & Medicaid Services (CMS) establishes a prospective payment rate for each of 92
distinct case-mix groups. Medicare Part A Medicare Administrative Contractors (MAC), under
contract with CMS, use the Fiscal Intermediary Shared System (FISS) to process and pay claims
submitted by IRFs.

To administer the prospective payment system, CMS requires IRFs to electronically transmit a
patient assessment instrument (PAI) for each IRF stay to the National Assessment Collection
Database (the Database). Each IRF must report the date that it transmitted the PAI to the
Database on the claim that it submits to the MAC. If an IRF transmits the PAI more than 27
calendar days from (and including) the beneficiary’s discharge date, the IRF’s payment rate for
the applicable case-mix group incurs a 25-percent late-assessment penalty, pursuant to 42 CFR
§ 412.614(d) and CMS guidance in Transmittal A-01-131.

Our audit covered 2,414 claims totaling $41.6 million that were at high risk of having been
overpaid because IRFs had transmitted PAIs to the Database after the 27-day deadline.

OBJECTIVE

Our objective was to determine whether IRFs received reduced case-mix-group payments for
claims with PAIs that were transmitted to the Database after the 27-day deadline.

SUMMARY OF FINDINGS

IRFs often did not receive reduced case-mix-group payments for claims with PAIs that were
transmitted to the Database after the 27-day deadline. Of the 108 claims that we sampled, which
had dates of service in calendar years 2009 and 2010, 20 were either canceled or paid correctly.
For the remaining 88 claims, IRFs did not receive reduced case-mix-group payments for PAIs
that were transmitted to the Database after the 27-day deadline.

Overpayments occurred because IRF and Medicare payment controls were inadequate. Based on
our sample results, we estimated that MACs made a total of $8.4 million in overpayments to
IRFs.

RECOMMENDATIONS

We recommend that CMS:

   •   adjust the 88 sampled claims for overpayments of $696,371 to the extent allowed under
       the law;




                                                 i
   •   work with the Office of Inspector General to resolve the remaining 2,306 nonsampled
       claims with potential overpayments estimated at $7.7 million and recover overpayments
       to the extent allowed under the law;

   •   continue to provide specific education to IRFs on the importance of reporting the correct
       PAI transmission dates on their claims;

   •   complete the process that would allow the FISS to interface with the Database to identify,
       on a prepayment basis, IRF claims with incorrect PAI transmission dates; and

   •   support the MACs’ and Recovery Audit Contractors’ efforts to conduct periodic
       postpayment reviews of IRF claims.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMMENTS

In written comments on our draft report, CMS concurred with our findings and recommendations and
outlined steps for implementing our recommendations. CMS’s comments, excluding three technical
comments that we addressed as appropriate, are included as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              The Prospective Payment System for Inpatient Rehabilitation Facilities ....1
              Patient Assessment Instruments ...................................................................1
              Prior Office of Inspector General Report.....................................................1
              Corrective Actions .......................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          PROGRAM REQUIREMENTS ..............................................................................4

          LATE TRANSMISSION OF PATIENT ASSESSMENT INSTRUMENTS .........5
               Overpayments Made to Inpatient Rehabilitation Facilities………………..5
               Causes of Overpayments..............................................................................5

          PAYMENT ESTIMATES .......................................................................................5

          RECOMMENDATIONS .........................................................................................6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ............6

APPENDIXES

          A: SAMPLING DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                                  INTRODUCTION

BACKGROUND

The Prospective Payment System for Inpatient Rehabilitation Facilities

Inpatient rehabilitation facilities (IRF) provide rehabilitation for patients who require a hospital
level of care, including a relatively intense rehabilitation program and an interdisciplinary,
coordinated team approach to improve their ability to function. Section 1886(j) of the Social
Security Act (the Act) established a Medicare prospective payment system for IRFs. The
Centers for Medicare & Medicaid Services (CMS), which administers the Medicare program,
implemented the prospective payment system for cost-reporting periods beginning on or after
January 1, 2002. Under the system, CMS establishes a Federal prospective payment rate for
each of 92 distinct case-mix groups. The assignment to a case-mix group is based on the
beneficiary’s clinical characteristics and expected resource needs.

During our audit period, calendar years (CY) 2009 and 2010, CMS contracted with Medicare
Part A Medicare Administrative Contractors (MAC) to process and pay claims submitted by
institutional providers, including IRFs. 1 MACs use the Fiscal Intermediary Shared System (FISS)
for claim processing.

Patient Assessment Instruments

Section 1886(j)(2)(D) of the Act requires IRFs to transmit sufficient patient data to allow CMS to
administer the IRF prospective payment system. These data are necessary to assign beneficiaries
to the appropriate case-mix groups, to monitor the effects of the IRF prospective payment system
on patient care and outcomes, and to determine whether adjustments to the case-mix groups are
warranted.

To meet its data needs, CMS requires IRFs to electronically transmit a patient assessment
instrument (PAI) for each IRF stay. Each IRF must report the date that it transmitted the PAI to
CMS’s National Assessment Collection Database (the Database) on the claim that it submits to the
MAC. If an IRF transmits the PAI more than 27 calendar days from (and including) the
beneficiary’s discharge date (the 27-day deadline), the IRF’s payment rate for the applicable case-
mix group is reduced by a 25-percent late-assessment penalty, pursuant to 42 CFR § 412.614(d)
and CMS guidance in Transmittal A-01-131.

Prior Office of Inspector General Report

In 2010, we issued a report entitled Nationwide Review of Inpatient Rehabilitation Facilities’
Transmission of Patient Assessment Instruments for Calendar Years 2006 and 2007


1
  The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173, which became
effective on October 1, 2005, amended certain sections of the Act, including section 1842(a), to require that MACs
replace fiscal intermediaries by October 2011.



                                                        1
(A-01-09-00507). That report disclosed that IRFs did not always receive reduced case-mix-group
payments for claims with PAIs that were transmitted to the Database after the 27-day deadline.
Overpayments occurred because IRF and Medicare payment controls were inadequate.
Specifically, IRFs did not have adequate controls to ensure that the PAI transmission dates
reported on claims matched the actual dates on which the IRFs transmitted the PAI to the
Database. Further, (1) FISS edits were not designed to identify PAIs that were transmitted to the
Database 1 day late, (2) Medicare prepayment controls were not designed to compare PAI
transmission dates on claims paid by the FISS with the actual dates on which IRFs transmitted the
PAI to the Database, and (3) MACs did not conduct postpayment reviews to identify late or
missing PAIs. Based on our sample results, we estimated that MACs made a total of
$20.2 million in overpayments to IRFs. We recommended that CMS recover any overpayments
and establish specific corrective actions to prevent and detect subsequent overpayments.

Corrective Actions

Based on the recommendations from our previous report, CMS implemented a system change 2
that revised the FISS edit to count the discharge date as day 1 in the 27-day period for
transmitting the PAI and for avoiding the 25-percent payment penalty. In addition, CMS is
developing an interface between the FISS system and the Database that could begin affecting
claims submitted as early as October 2012. Furthermore, CMS stated that the MACs and the
Recovery Audit Contractors (RAC) started a postpayment review process to identify and collect
on IRF claims that are subject to the 25-percent penalty.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether IRFs received reduced case-mix-group payments for
claims with PAIs that were transmitted to the Database after the 27-day deadline.

Scope

Nationwide, IRFs submitted a total of 509,957 claims valued at $8.6 billion with dates of service in
CYs 2009 and 2010. Our audit covered 2,414 claims totaling $41.6 million that were at high risk
of having been overpaid because, according to the transmission date in the Database, the IRF had
transmitted the PAI to the Database after the 27-day deadline.

Our objective did not require an understanding or assessment of the complete internal control
structures of IRFs, CMS, or MACs. Therefore, we limited our review at IRFs to the controls
related to reporting PAI transmission dates on Medicare claims. We limited our review at CMS
and selected MACs to the controls related to preventing or detecting Medicare overpayments to
IRFs for claims with PAIs that were transmitted to the Database after the 27-day deadline.



2
  CMS implemented the system change on October 5, 2009, which was after completion of our fieldwork and prior
to issuance of the draft report.


                                                      2
Our fieldwork consisted of contacting IRFs nationwide, visiting two IRFs in Connecticut and New
York, and contacting two MACs. We conducted our fieldwork during January and February 2012.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   interviewed officials from CMS and two MACs to gain an understanding of edits in the
       FISS and other controls intended to prevent or detect Medicare overpayments to IRFs;

   •   extracted IRF paid claim data from CMS’s National Claims History file for CYs 2009
       and 2010;

   •   obtained from CMS a Database of all the original submissions of PAIs for claims with
       dates of service in CYs 2009 and 2010;

   •   developed a computer match between the National Claims History file and the Database
       that identified 2,414 claims that, according to the Database, had PAI transmission dates
       that were more than 27 days after (and including) the beneficiaries’ discharge dates on
       the claims;

   •   selected a stratified random sample of 108 claims from the 2,414 claims (Appendix A);

   •   reviewed data from CMS’s Common Working File for the 108 sampled claims to
       (1) validate claim information extracted from the National Claims History file, (2) verify
       that the late-assessment penalty had not been applied, and (3) determine whether any of
       the selected claims had been canceled;

   •   contacted representatives from the 49 IRFs that submitted the 108 sampled claims to
       confirm the overpayments and to determine the underlying causes of noncompliance with
       Medicare requirements;

   •   calculated the correct payments for our sampled claims by reducing the prospective
       payment rate for the applicable case-mix group by 25 percent;

   •   estimated the total value of overpayments based on our sample results (Appendix B); and

   •   discussed the results of our review with CMS.

We assessed the reliability of IRF data by (1) performing electronic testing of required data
elements, (2) reviewing existing information about the data and the system that produced them,
and (3) interviewing agency officials knowledgeable about the data. In addition, we traced a
random sample of data to source documents. We determined that the data were reliable for the
purpose of this audit.


                                                3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

IRFs often did not receive reduced case-mix-group payments for claims with PAIs that were
transmitted to the Database after the 27-day deadline. Of the 108 claims that we sampled, which
had dates of service in CYs 2009 and 2010, 20 were either canceled or paid correctly. 3 For the
remaining 88 claims, IRFs did not receive reduced case-mix-group payments for the PAIs that
were transmitted to the Database after the 27-day deadline.

Overpayments occurred because IRF and Medicare payment controls were inadequate. Based on
our sample results, we estimated that MACs made a total of $8.4 million in overpayments to
IRFs.

PROGRAM REQUIREMENTS

Pursuant to 42 CFR § 412.614, IRFs must electronically transmit to CMS timely, complete, and
accurate encoded data from the PAI for each Medicare Part A beneficiary.

CMS guidance in Transmittal A-01-131, dated November 1, 2001, elaborates on the requirement
for timely transmission of the PAI set forth in 42 CFR § 412.614(c) and (d). The guidance states
that an IRF must transmit PAI data to the Database by the 17th calendar day from the date of the
beneficiary’s discharge. If the actual transmission date is more than 10 calendar days from the
mandated transmission date, CMS considers the PAI late, and, pursuant to 42 CFR § 412.614(d),
the IRF’s payment rate for the applicable case-mix group is reduced by a 25-percent late-
assessment penalty. Therefore, if the IRF transmits the PAI more than 27 calendar days from the
discharge date (with the discharge date itself starting the counting sequence), the 25-percent
penalty should be applied.

Additional CMS guidance in Transmittal 291, dated August 27, 2004, states that for a discharge
on or after October 1, 2004, the IRF must record the date of the PAI transmission in the “Service
Date” field of the claim. 4



3
  We identified some claims that had a PAI transmission date that was earlier than the transmission date recorded in
the Database. In these instances the IRF submitted a PAI that was accepted by the Database; however, the IRF at a
later date canceled that PAI and retransmitted another one. The PAI transmission date recorded in the Database is
the date that the PAI was retransmitted. We considered these claims to be paid correctly if the earlier transmission
date was within the 27-day deadline.
4
 CMS Transmittal 2011, dated July 30, 2010, revised the billing instructions to require IRFs to use occurrence code
50 to record the date of the PAI transmission. The “Service Date” field is no longer used as of January 1, 2011.



                                                         4
LATE TRANSMISSION OF PATIENT ASSESSMENT INSTRUMENTS

Overpayments Made to Inpatient Rehabilitation Facilities

Contrary to Medicare regulations, IRFs did not receive reduced case-mix-group payments for 88
sampled claims with PAIs that were transmitted to the Database after the 27-day deadline. IRFs
reported incorrect transmission dates on the 88 claims. IRFs transmitted the PAIs that related to
these 88 claims to the database from 1 to 424 days after the 27-day deadline. On average, IRFs
transmitted these PAIs 70 days after the deadline. The IRFs received overpayments totaling
$696,371 for these 88 claims.

Causes of Overpayments

Inadequate Controls at Inpatient Rehabilitation Facilities

IRFs did not ensure that the PAI transmission dates reported on their claims matched the actual
dates on which the IRFs transmitted the PAIs to the Database. IRF officials informed us that
clinical staff who transmitted PAIs to the Database did not always effectively communicate PAI
transmission dates to billing staff, who were responsible for recording the dates on the claims.
When the clinical staff did not communicate the PAI transmission dates to the billing staff, the
billing staff often recorded the beneficiaries’ discharge dates as the PAI transmission dates. In
other instances, IRFs’ billing systems did not include correct transmission dates on the claims.
Specifically, the claims included the date that IRF staff completed the PAI instead of the date the
staff transmitted the PAI to the Database.

Inadequate Medicare Payment Controls

During the period of our review, CMS payment controls were not adequate to detect and prevent
overpayments. Specifically, Medicare prepayment controls were not designed to compare the
PAI transmission dates on claims paid by the FISS with the actual dates on which IRFs
transmitted the PAI to the Database. 5 In addition, although CMS officials stated that the MACs
and RACs had started a postpayment review process, no postpayment reviews had been
performed as of the end of our fieldwork. Further, the FISS edit did not count the discharge date
as day 1 in the 27-day sequence for the first 9 months of our review period. Lastly, until
April 2010, CMS did not provide specific education to IRFs on the importance of submitting
PAIs on time.

PAYMENT ESTIMATES

Based on our sample results, we estimated that for services provided in CYs 2009 and 2010,
MACs made a total of $8.4 million in overpayments to IRFs for claims that should have been
reduced by the 25-percent penalty because the associated PAIs were transmitted to the Database
after the 27-day deadline.


5
    During the course of our review, CMS began working on the interface between the FISS system and the Database.



                                                         5
RECOMMENDATIONS

We recommend that CMS:

   •   adjust the 88 sampled claims for overpayments of $696,371 to the extent allowed under
       the law;

   •   work with the Office of Inspector General to resolve the remaining 2,306 nonsampled
       claims with potential overpayments estimated at $7.7 million and recover overpayments
       to the extent allowed under the law;

   •   continue to provide specific education to IRFs on the importance of reporting the correct
       PAI transmission dates on their claims;

   •   complete the process that would allow the FISS to interface with the Database to identify,
       on a prepayment basis, IRF claims with incorrect PAI transmission dates; and

   •   support the MACs’ and RACs’ efforts to conduct periodic postpayment reviews of IRF
       claims.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMMENTS

In written comments on our draft report, CMS concurred with our findings and recommendations and
outlined steps for implementing our recommendations. CMS’s comments, excluding three technical
comments that we addressed as appropriate, are included as Appendix C.




                                               6
APPENDIXES
                                                                                      Page 1 of 2
               APPENDIX A: SAMPLING DESIGN AND METHODOLOGY

POPULATION

The population consisted of nationwide Medicare inpatient rehabilitation facility (IRF) claims for
calendar years (CY) 2009 and 2010.

SAMPLING FRAME

We obtained a Microsoft Access table of 509,957 nationwide Medicare IRF claims that had a
total claim paid amount of $8,587,067,452.33 through dates of service in CYs 2009 and 2010
from the National Claims History file. Each claim paid amount was greater than zero dollars and
was not related to claims for Medicare Managed Care. Each table record (row) corresponded to
one IRF claim. The audit team then removed 4,344 claims that contained services with revenue
center dates that were greater than 27 days from their associated claim through dates (usually the
patient’s discharge date). We also removed 13 duplicate claims. This resulted in an Access table
containing 505,600 IRF claims with a total claim paid amount of $8,529,071,038.14.

We obtained a second Access table from the Centers for Medicare & Medicaid Services that
consisted of 887,630 rows for original IRF patient assessment instrument (PAI) submissions for
CYs 2009 and 2010. Each row corresponded to a single IRF-PAI. We used Access to match and
combine data from the IRF claim and PAI tables. We removed all non-Medicare fee-for-service
PAI submissions and Medicare PAI submissions transmitted within the 27-day deadline. The
resulting Access table of matched data was exported to an Excel spreadsheet that contained
2,428 rows for IRF claims with their matching PAI data. We then removed rows for claims with
claim payment amounts less than or equal to $1,000.

The resulting Excel spreadsheet contained a sampling frame of 2,414 IRF claims with a total
claim paid amount of $41,612,184.90.

SAMPLE UNIT

The sample unit was an IRF claim.

SAMPLE DESIGN

 Our sample design was a stratified random sample with the following four strata:

                          Claim Paid Amount           Number of          Dollar Value of
       Stratum
                                 Range                IRF Claims          IRF Claims
           1             $1,084.80 to $13,690.99        1,022              $9,451,000
           2              $13,691 to $24,004.99          956               17,255,293
           3              $24,005 to $58,390.98            418              13,479,648
   4 (100% Review)       Greater than $58,390.98            18              1,426,244
         Total                                            2,414            $41,612,185
                                                                                    Page 2 of 2
SAMPLE SIZE

We randomly selected 30 claims from stratum 1, 30 claims from stratum 2, and 30 claims from
stratum 3. We also reviewed the 18 claims in stratum 4. Therefore, our total sample size was
108 claims. We considered the results of prior audits when we selected our sample size.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.

METHOD OF SELECTING SAMPLED UNITS

We consecutively numbered the sample units in the frame from 1 to 1,022 for stratum 1, from 1
to 956 for stratum 2, and 1 to 418 for stratum 3. After generating 30 random numbers for
stratum 1, 30 random numbers for stratum 2, and 30 random numbers for stratum 3, we then
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG, OAS, statistical software to estimate the dollar value of overpayments.




                                               2
                  APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                        Sample Results
                                                                        IRF
                  Frame     Value of       Sample        Value of                  Value of
   Stratum                                                             Claims
                   Size      Frame          Size         Sample                  Overpayments
                                                                      in Error
       1          1,022    $9,451,000         30         $258,006       23         $50,441
      2            956     17,255,293         30         532,674        26         115,576
      3            418     13,479,648         30         998,939        22         189,855
4 (100% Review)    18       1,426,244         18         1,426,244      17         340,499
     Total        2,414    $41,612,185       108     $3,215,863         88         $696,371


                                 Estimated Overpayments
                  (Limits Calculated for a 90-Percent Confidence Interval)

                   Point estimate                        $8,387,204
                   Lower limit                            7,594,480
                   Upper limit                            9,179,928
                        APPENDIX C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 

~S'£,llVIC€.S'"                 '                                             Page 1 of3

(~J                  DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                             Centers for Medicare & Medicaid Services
                                                                                             Office of Strategic Operations
                                                                                               and Regulatory Affairs


                                                                                             200 Independence Avenue SW
                                                                                             Washington, DC 20201




                  DATE:       AUG 0 6 2012
                  TO:               Daniel R. Levinson


                  FROM:


                  SUBJECT:          Office ofInspector General (OIG) Draft Report: Medicare Overpaid Inpatient
                                    Rehabilitation Facilities Millions of Dollars for Claims with Late Patient
                                    Assessment Instruments for Calendar Years 2009 and 2010 (A-01-11-00534)


                  Thank you for the opportunity to review and comment on the OIG draft report entitled,
                  "Medicare Overpaid Inpatient Rehabilitation Facilities Millions of Dollars for Claims with Late
                  Patient Assessment Instruments for Calendar Years 2009 and 2010" (A-01-11-00534). The
                  Centers for Medicare & Medicaid Services (CMS) appreciates the time and resources OIG has
                  utilized in reviewing this issue. The foundation for conducting the audit is based on the
                  recommendations from a previous OIG report, "Nationwide Review of Inpatient Rehabilitation
                  Facilities' Transmission of Patient Assessment Instruments for Calendar Years 2006 and 2007"
                  (A-01-09-00507). CMS implemented a system change that revised the Fiscal Intermediary
                  Shared System (FISS) edit to count the discharge date as day 1 in the 27-day period for
                  transmitting the patient assessment instruments (PAl) and for avoiding the 25 percent payment
                  penalty. In addition, CMS is developing an interface between the FISS system and the Database
                  that could begin affecting claims submitted as early as October 2012. Furthermore, CMS stated
                  that the Medicare Administrative Contractors (MACs) and the Recovery Audit Contractors
                  (RACs) started a postpayment review process to identify and collect on inpatient rehabilitation
                  facility (IRF) claims that are subject to the 25 percent penalty.

                  The OIG's study reports IRFs did not always receive reduced case-mix-group payments for
                  claims with PAIs that were transmitted to the Database after the 27-day deadline. Of the 108
                  claims that were sampled with dates of service in calendar years 2009 and 2010, 20 were either
                  canceled or paid correctly. For the remaining 88 claims, IRFs did not receive reduced case-mix­
                  group payments for PAIs that were transmitted to the Database after the 27 -day deadline. Based
                  on the OIG sample results, they estimated that MACs made a total of $8.4 million in
                  overpayments to IRFs.

                  The CMS appreciates the effort that went into this report and looks forward to continuing to
                  work with the OIG on safeguarding the Medicare program. We have reviewed the report and
                  have provided technical comments in addition to responding to OIG recommendations.
                                                                                          Page 2 of3
Page 2 - Daniel R. Levinson


OIG Recommendation 1

The OIG recommends that CMS adjust the 88 sampled claims for overpayments of$696,371 to
the extent allowed under the law.

eMS Response

The CMS concurs. CMS has reviewed the sample claims from OIG and plans to recover the
identified overpayments consistent with the agency's policies and procedures.

OIG Recommendation 2

The OIG recommends that CMS work with the Office of Inspector General to resolve the
remaining 2,306 nonsampled claims with potential overpayments estimated at $7.7 million and
recover overpayments to the extent allowed under the law.

eMS Response

The CMS concurs. Upon receipt of the files from OIG, CMS will provide the AlB MACs with
their IRFs questionable claims as identified by OIG. CMS requests that OIG furnish the data
necessary (Medicare contractor numbers, provider numbers, claims information including the
paid date, health insurance claim numbers, etc.). In addition, CMS requests that Medicare
contractor-specific data be written to separate CD-ROMs or sent to a secure portal to better
facilitate the transfer of information to the appropriate contractors. We will instruct the
contractors to consider taking the appropriate actions on the suppliers identified in this report and
the additional claim information when prioritizing their Medicare review strategies or other
interventions.

The Recovery Auditors review Medicare Fee-For-Service claims on a post-payment basis and
are tasked with identifying overpayments. While CMS does not mandate areas for review, we
will share this information with them and encourage them to consider these findings as they
decide what claims to review.

OIG Recommendation 3

The OIG recommends that CMS provide specific education to IRFs on the importance of
reporting the correct PAl transmission dates on their claims.

eMS Response

The CMS concurs. Since April 2010, CMS's National Assessment Collection Database has been
sending the following alert to IRFs when they transmit late patient assessment instruments:
"This data record has been transmitted late. The transmission date must be reported on your
Medicare claim, and may result in a late transmission penalty."
                                                                                        Page 3 of3
Page 3 - Daniel R. Levinson


For assessments submitted on or after October 1,2012, the alert will be updated to include more
detail about the late transmission policy, including that the assessment must be submitted within
27 days of the date of discharge. Also, we are issuing instructions to the fiscal intermediaries
and MACs to provide specific education to IRFs on the importance of recording the correct IRF­
PAl transmission dates on their claims. We will continue to work with the associations that
represent the IRF industry to reiterate the importance of reporting the correct patient assessment
instrument transmission dates on the claims.

OIG Recommendation 4

The OIG recommends that CMS complete the process that would allow the FISS to interface
with the Database to identify, on a prepayment basis, IRF claims with incorrect PAl transmission
dates.

CMS Response

The CMS concurs. CMS has completed the design process that would allow the FISS to
interface with the PAl Database to identify IRF claims with incorrect PAl transmissions dates on
a prepayment basis. An instruction (Change Request 7760) as part of CMS Quarterly System
Release process was completed and published on April 27, 2012, for implementation with the
October 2012 quarterly system release.

OIG Recommendation 5

The OIG recommends that CMS support the MACs' and Recovery Audit Contractors' efforts to
conduct periodic postpayment reviews of IRF claims.

CMS Response

The CMS concurs. CMS will issue a Joint Signature Memorandum/Technical Direction Letter to
the MACs and RACs with a link to the OIG report and specific claims information. CMS will
inform them that these findings are informational and shall be considered a source of data as they
prioritize their workload, along with all other data they consider.
